APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A R.C. § 149.43 . . . . . . . . . . . . . . . . . App. 1

App. 1

APPENDIX A
R.C. § 149.43
149.43 Availability of public records;
mandamus action; training of public
employees; public records policy; bulk
commercial special extraction requests
Effective: October 17, 2019 to March 23, 2021
(A)

As used in this section:

(1)
“Public record” means records kept by any public
office, including, but not limited to, state, county, city,
village, township, and school district units, and records
pertaining to the delivery of educational services by an
alternative school in this state kept by the nonprofit or
for-profit entity operating the alternative school
pursuant to section 3313.533 of the Revised Code.
“Public record” does not mean any of the following:
(a)

Medical records;

(b)
Records pertaining to probation and parole
proceedings, to proceedings related to the imposition of
community control sanctions and post-release control
sanctions, or to proceedings related to determinations
under section 2967.271 of the Revised Code regarding
the release or maintained incarceration of an offender
to whom that section applies;
(c)
Records pertaining to actions under section
2151.85 and division (C) of section 2919.121 of the

App. 2
Revised Code and to appeals of actions arising under
those sections;
(d)
Records pertaining to adoption proceedings,
including the contents of an adoption file maintained
by the department of health under sections 3705.12 to
3705.124 of the Revised Code;
(e)
Information in a record contained in the putative
father registry established by section 3107.062 of the
Revised Code, regardless of whether the information is
held by the department of job and family services or,
pursuant to section 3111.69 of the Revised Code, the
office of child support in the department or a child
support enforcement agency;
(f)
Records specified in division (A) of section
3107.52 of the Revised Code;
(g)

Trial preparation records;

(h)
Confidential law enforcement investigatory
records;
(i)
Records containing information that is
confidential under section 2710.03 or 4112.05 of the
Revised Code;
(j)
DNA records stored in the DNA database
pursuant to section 109.573 of the Revised Code;
(k)
Inmate records released by the department of
rehabilitation and correction to the department of
youth services or a court of record pursuant to division
(E) of section 5120.21 of the Revised Code;

App. 3
(l)
Records maintained by the department of youth
services pertaining to children in its custody released
by the department of youth services to the department
of rehabilitation and correction pursuant to section
5139.05 of the Revised Code;
(m)

Intellectual property records;

(n)

Donor profile records;

(o)
Records maintained by the department of job
and family services pursuant to section 3121.894 of the
Revised Code;
(p)
Designated public service worker residential and
familial information;
(q)
In the case of a county hospital operated
pursuant to Chapter 339. of the Revised Code or a
municipal hospital operated pursuant to Chapter 749.
of the Revised Code, information that constitutes a
trade secret, as defined in section 1333.61 of the
Revised Code;
(r)
Information pertaining to the recreational
activities of a person under the age of eighteen;
(s)
In the case of a child fatality review board acting
under sections 307.621 to 307.629 of the Revised Code
or a review conducted pursuant to guidelines
established by the director of health under section
3701.70 of the Revised Code, records provided to the
board or director, statements made by board members
during meetings of the board or by persons
participating in the director’s review, and all work
products of the board or director, and in the case of a

App. 4
child fatality review board, child fatality review data
submitted by the board to the department of health or
a national child death review database, other than the
report prepared pursuant to division (A) of section
307.626 of the Revised Code;
(t)
Records provided to and statements made by the
executive director of a public children services agency
or a prosecuting attorney acting pursuant to section
5153.171 of the Revised Code other than the
information released under that section;
(u)
Test materials, examinations, or evaluation tools
used in an examination for licensure as a nursing home
administrator that the board of executives of long-term
services and supports administers under section
4751.15 of the Revised Code or contracts under that
section with a private or government entity to
administer;
(v)
Records the release of which is prohibited by
state or federal law;
(w)
Proprietary information of or relating to any
person that is submitted to or compiled by the Ohio
venture capital authority created under section 150.01
of the Revised Code;
(x)
Financial statements and data any person
submits for any purpose to the Ohio housing finance
agency or the controlling board in connection with
applying for, receiving, or accounting for financial
assistance from the agency, and information that
identifies any individual who benefits directly or
indirectly from financial assistance from the agency;

App. 5
(y)
Records listed in section 5101.29 of the Revised
Code;
(z)
Discharges recorded with a county recorder
under section 317.24 of the Revised Code, as specified
in division (B)(2) of that section;
(aa) Usage information including names and
addresses of specific residential and commercial
customers of a municipally owned or operated public
utility;
(bb) Records described in division (C) of section
187.04 of the Revised Code that are not designated to
be made available to the public as provided in that
division;
(cc) Information and records that are made
confidential, privileged, and not subject to disclosure
under divisions (B) and (C) of section 2949.221 of the
Revised Code;
(dd) Personal information, as defined in section
149.45 of the Revised Code;
(ee) The confidential name, address, and other
personally identifiable information of a program
participant in the address confidentiality program
established under sections 111.41 to 111.47 of the
Revised Code, including the contents of any application
for absent voter’s ballots, absent voter’s ballot
identification envelope statement of voter, or
provisional ballot affirmation completed by a program
participant who has a confidential voter registration
record, and records or portions of records pertaining to
that program that identify the number of program

App. 6
participants that reside within a precinct, ward,
township, municipal corporation, county, or any other
geographic area smaller than the state. As used in this
division, “confidential address” and “program
participant” have the meaning defined in section
111.41 of the Revised Code.
(ff)
Orders for active military service of an
individual serving or with previous service in the
armed forces of the United States, including a reserve
component, or the Ohio organized militia, except that,
such order becomes a public record on the day that is
fifteen years after the published date or effective date
of the call to order;
(gg) The name, address, contact information, or other
personal information of an individual who is less than
eighteen years of age that is included in any record
related to a traffic accident involving a school vehicle in
which the individual was an occupant at the time of the
accident;
(hh) Protected health information, as defined in 45
C.F.R. 160.103, that is in a claim for payment for a
health care product, service, or procedure, as well as
any other health claims data in another document that
reveals the identity of an individual who is the subject
of the data or could be used to reveal that individual’s
identity;
(ii)
Any depiction by photograph, film, videotape, or
printed or digital image under either of the following
circumstances:
(i)
The depiction is that of a victim of an offense the
release of which would be, to a reasonable person of

App. 7
ordinary sensibilities, an offensive and objectionable
intrusion into the victim’s expectation of bodily privacy
and integrity.
(ii)
The depiction captures or depicts the victim of a
sexually oriented offense, as defined in section 2950.01
of the Revised Code, at the actual occurrence of that
offense.
(jj)
Restricted portions of a body-worn camera or
dashboard camera recording;
(kk) In the case of a fetal-infant mortality review
board acting under sections 3707.70 to 3707.77 of the
Revised Code, records, documents, reports, or other
information presented to the board or a person
abstracting such materials on the board’s behalf,
statements made by review board members during
board meetings, all work products of the board, and
data submitted by the board to the department of
health or a national infant death review database,
other than the report prepared pursuant to section
3707.77 of the Revised Code.
(ll)
Records, documents, reports, or other
information presented to the pregnancy-associated
mortality review board established under section
3738.01 of the Revised Code, statements made by board
members during board meetings, all work products of
the board, and data submitted by the board to the
department of health, other than the biennial reports
prepared under section 3738.08 of the Revised Code;
(mm) Telephone numbers for a victim, as defined in
section 2930.01 of the Revised Code, a witness to a
crime, or a party to a motor vehicle accident subject to

App. 8
the requirements of section 5502.11 of the Revised
Codethat are listed on any law enforcement record or
report.
A record that is not a public record under division
(A)(1) of this section and that, under law, is
permanently retained becomes a public record on the
day that is seventy-five years after the day on which
the record was created, except for any record protected
by the attorney-client privilege, a trial preparation
record as defined in this section, a statement
prohibiting the release of identifying information
signed under section 3107.083 of the Revised Code, a
denial of release form filed pursuant to section 3107.46
of the Revised Code, or any record that is exempt from
release or disclosure under section 149.433 of the
Revised Code. If the record is a birth certificate and a
biological parent’s name redaction request form has
been accepted under section 3107.391 of the Revised
Code, the name of that parent shall be redacted from
the birth certificate before it is released under this
paragraph. If any other section of the Revised Code
establishes a time period for disclosure of a record that
conflicts with the time period specified in this section,
the time period in the other section prevails.
(2)
“Confidential law enforcement investigatory
record” means any record that pertains to a law
enforcement matter of a criminal, quasi-criminal, civil,
or administrative nature, but only to the extent that
the release of the record would create a high
probability of disclosure of any of the following:
(a)
The identity of a suspect who has not been
charged with the offense to which the record pertains,

App. 9
or of an information source or witness to whom
confidentiality has been reasonably promised;
(b)
Information provided by an information source
or witness to whom confidentiality has been reasonably
promised, which information would reasonably tend to
disclose the source’s or witness’s identity;
(c)
Specific confidential investigatory techniques or
procedures or specific investigatory work product;
(d)
Information that would endanger the life or
physical safety of law enforcement personnel, a crime
victim, a witness, or a confidential information source.
(3)
“Medical record” means any document or
combination of documents, except births, deaths, and
the fact of admission to or discharge from a hospital,
that pertains to the medical history, diagnosis,
prognosis, or medical condition of a patient and that is
generated and maintained in the process of medical
treatment.
(4)
“Trial preparation record” means any record that
contains information that is specifically compiled in
reasonable anticipation of, or in defense of, a civil or
criminal action or proceeding, including the
independent thought processes and personal trial
preparation of an attorney.
(5)
“Intellectual property record” means a record,
other than a financial or administrative record, that is
produced or collected by or for faculty or staff of a state
institution of higher learning in the conduct of or as a
result of study or research on an educational,
commercial, scientific, artistic, technical, or scholarly

App. 10
issue, regardless of whether the study or research was
sponsored by the institution alone or in conjunction
with a governmental body or private concern, and that
has not been publicly released, published, or patented.
(6)
“Donor profile record” means all records about
donors or potential donors to a public institution of
higher education except the names and reported
addresses of the actual donors and the date, amount,
and conditions of the actual donation.
(7)
“Designated public service worker” means a
peace officer, parole officer, probation officer, bailiff,
prosecuting attorney, assistant prosecuting attorney,
correctional employee, county or multicounty
corrections officer, community-based correctional
facility employee, youth services employee, firefighter,
EMT, medical director or member of a cooperating
physician advisory board of an emergency medical
service organization, state board of pharmacy
employee, investigator of the bureau of criminal
identification and investigation, judge, magistrate, or
federal law enforcement officer.
(8)
“Designated public service worker residential
and familial information” means any information that
discloses any of the following about a designated public
service worker:
(a)
The address of the actual personal residence of
a designated public service worker, except for the
following information:
(i)
The address of the actual personal residence of
a prosecuting attorney or judge; and

App. 11
(ii)
The state or political subdivision in which a
designated public service worker resides.
(b)
Information compiled from referral to or
participation in an employee assistance program;
(c)
The social security number, the residential
telephone number, any bank account, debit card,
charge card, or credit card number, or the emergency
telephone number of, or any medical information
pertaining to, a designated public service worker;
(d)
The name of any beneficiary of employment
benefits, including, but not limited to, life insurance
benefits, provided to a designated public service worker
by the designated public service worker’s employer;
(e) The identity and amount of any charitable or
employment benefit deduction made by the designated
public service worker’s employer from the designated
public service worker’s compensation, unless the
amount of the deduction is required by state or federal
law;
(f)
The name, the residential address, the name of
the employer, the address of the employer, the social
security number, the residential telephone number,
any bank account, debit card, charge card, or credit
card number, or the emergency telephone number of
the spouse, a former spouse, or any child of a
designated public service worker;
(g)
A photograph of a peace officer who holds a
position or has an assignment that may include
undercover or plain clothes positions or assignments as
determined by the peace officer’s appointing authority.

App. 12
(9)
As used in divisions (A)(7) and (15) to (17) of this
section:
“Peace officer” has the meaning defined in section
109.71 of the Revised Codeand also includes the
superintendent and troopers of the state highway
patrol; it does not include the sheriff of a county or a
supervisory employee who, in the absence of the sheriff,
is authorized to stand in for, exercise the authority of,
and perform the duties of the sheriff.
“Correctional employee” means any employee of the
department of rehabilitation and correction who in the
course of performing the employee’s job duties has or
has had contact with inmates and persons under
supervision.
“County or multicounty corrections officer” means any
corrections officer employed by any county or
multicounty correctional facility.
“Youth services employee” means any employee of the
department of youth services who in the course of
performing the employee’s job duties has or has had
contact with children committed to the custody of the
department of youth services.
“Firefighter” means any regular, paid or volunteer,
member of a lawfully constituted fire department of a
municipal corporation, township, fire district, or
village.
“EMT” means EMTs-basic, EMTs-I, and paramedics
that provide emergency medical services for a public
emergency medical service organization. “Emergency
medical service organization,” “EMT-basic,” “EMT-I,”

App. 13
and “paramedic” have the meanings defined in section
4765.01 of the Revised Code.
“Investigator of the bureau of criminal identification
and investigation” has the meaning defined in section
2903.11 of the Revised Code.
“Federal law enforcement officer” has the meaning
defined in section 9.88 of the Revised Code.
(10) “Information pertaining to the recreational
activities of a person under the age of eighteen” means
information that is kept in the ordinary course of
business by a public office, that pertains to the
recreational activities of a person under the age of
eighteen years, and that discloses any of the following:
(a)
The address or telephone number of a person
under the age of eighteen or the address or telephone
number of that person’s parent, guardian, custodian, or
emergency contact person;
(b)
The social security number, birth date, or
photographic image of a person under the age of
eighteen;
(c)
Any medical record, history, or information
pertaining to a person under the age of eighteen;
(d)
Any additional information sought or required
about a person under the age of eighteen for the
purpose of allowing that person to participate in any
recreational activity conducted or sponsored by a public
office or to use or obtain admission privileges to any
recreational facility owned or operated by a public
office.

App. 14
(11) “Community control sanction” has the meaning
defined in section 2929.01 of the Revised Code.
“Post-release control sanction” has the meaning defined
in section 2967.01 of the Revised Code.
(13) “Redaction” means obscuring or deleting any
information that is exempt from the duty to permit
public inspection or copying from an item that
otherwise meets the definition of a “record” in section
149.011 of the Revised Code.
(14) “Designee,” “elected official,” and “future official”
have the meanings defined in section 109.43 of the
Revised Code.
(15) “Body-worn camera” means a visual and audio
recording device worn on the person of a peace officer
while the peace officer is engaged in the performance of
the peace officer’s duties.
(16) “Dashboard camera” means a visual and audio
recording device mounted on a peace officer’s vehicle or
vessel that is used while the peace officer is engaged in
the performance of the peace officer’s duties.
(17) “Restricted portions of a body-worn camera or
dashboard camera recording” means any visual or
audio portion of a bodyworn camera or dashboard
camera recording that shows, communicates, or
discloses any of the following:
(a)
The image or identity of a child or information
that could lead to the identification of a child who is a
primary subject of the recording when the law
enforcement agency knows or has reason to know the

App. 15
person is a child based on the law enforcement agency’s
records or the content of the recording;
(b)
The death of a person or a deceased person’s
body, unless the death was caused by a peace officer or,
subject to division (H) (1) of this section, the consent of
the decedent’s executor or administrator has been
obtained;
(c)
The death of a peace officer, firefighter,
paramedic, or other first responder, occurring while the
decedent was engaged in the performance of official
duties, unless, subject to division (H)(1) of this section,
the consent of the decedent’s executor or administrator
has been obtained;
(d)
Grievous bodily harm, unless the injury was
effected by a peace officer or, subject to division (H)(1)
of this section, the consent of the injured person or the
injured person’s guardian has been obtained;
(e)
An act of severe violence against a person that
results in serious physical harm to the person, unless
the act and injury was effected by a peace officer or,
subject to division (H)(1) of this section, the consent of
the injured person or the injured person’s guardian has
been obtained;
(f)
Grievous bodily harm to a peace officer,
firefighter, paramedic, or other first responder,
occurring while the injured person was engaged in the
performance of official duties, unless, subject to
division (H)(1) of this section, the consent of the injured
person or the injured person’s guardian has been
obtained;

App. 16
(g)
An act of severe violence resulting in serious
physical harm against a peace officer, firefighter,
paramedic, or other first responder, occurring while the
injured person was engaged in the performance of
official duties, unless, subject to division (H) (1) of this
section, the consent of the injured person or the injured
person’s guardian has been obtained;
(h)
A person’s nude body, unless, subject to division
(H)(1) of this section, the person’s consent has been
obtained;
(i)
Protected health information, the identity of a
person in a health care facility who is not the subject of
a law enforcement encounter, or any other information
in a health care facility that could identify a person
who is not the subject of a law enforcement encounter;
(j)
Information that could identify the alleged
victim of a sex offense, menacing by stalking, or
domestic violence;
(k)
Information, that does not constitute a
confidential law enforcement investigatory record, that
could identify a person who provides sensitive or
confidential information to a law enforcement agency
when the disclosure of the person’s identity or the
information provided could reasonably be expected to
threaten or endanger the safety or property of the
person or another person;
(l)
Personal information of a person who is not
arrested, cited, charged, or issued a written warning by
a peace officer;

App. 17
(m) Proprietary police contingency plans or tactics
that are intended to prevent crime and maintain public
order and safety;
(n)
A personal conversation unrelated to work
between peace officers or between a peace officer and
an employee of a law enforcement agency;
(o)
A conversation between a peace officer and a
member of the public that does not concern law
enforcement activities;
(p)
The interior of a residence, unless the interior of
a residence is the location of an adversarial encounter
with, or a use of force by, a peace officer;
(q)
Any portion of the interior of a private business
that is not open to the public, unless an adversarial
encounter with, or a use of force by, a peace officer
occurs in that location.
As used in division (A)(17) of this section:
“Grievous bodily harm” has the same meaning as in
section 5924.120 of the Revised Code.
“Health care facility” has the same meaning as in
section 1337.11 of the Revised Code.
“Protected health information” has the same meaning
as in 45 C.F.R. 160.103.
“Law enforcement agency” has the same meaning as in
section 2925.61 of the Revised Code.
“Personal information” means any government-issued
identification number, date of birth, address, financial
information, or criminal justice information from the

App. 18
law enforcement automated data system or similar
databases.
“Sex offense” has the same meaning as in section
2907.10 of the Revised Code.
“Firefighter,” “paramedic,” and “first responder” have
the same meanings as in section 4765.01 of the Revised
Code.
(B)(1) Upon request and subject to division (B)(8) of
this section, all public records responsive to the request
shall be promptly prepared and made available for
inspection to any person at all reasonable times during
regular business hours. Subject to division (B)(8) of this
section, upon request by any person, a public office or
person responsible for public records shall make copies
of the requested public record available to the
requester at cost and within a reasonable period of
time. If a public record contains information that is
exempt from the duty to permit public inspection or to
copy the public record, the public office or the person
responsible for the public record shall make available
all of the information within the public record that is
not exempt. When making that public record available
for public inspection or copying that public record, the
public office or the person responsible for the public
record shall notify the requester of any redaction or
make the redaction plainly visible. A redaction shall be
deemed a denial of a request to inspect or copy the
redacted information, except if federal or state law
authorizes or requires a public office to make the
redaction.

App. 19
(2)
To facilitate broader access to public records, a
public office or the person responsible for public records
shall organize and maintain public records in a manner
that they can be made available for inspection or
copying in accordance with division (B) of this section.
A public office also shall have available a copy of its
current records retention schedule at a location readily
available to the public. If a requester makes an
ambiguous or overly broad request or has difficulty in
making a request for copies or inspection of public
records under this section such that the public office or
the person responsible for the requested public record
cannot reasonably identify what public records are
being requested, the public office or the person
responsible for the requested public record may deny
the request but shall provide the requester with an
opportunity to revise the request by informing the
requester of the manner in which records are
maintained by the public office and accessed in the
ordinary course of the public office’s or person’s duties.
(3)
If a request is ultimately denied, in part or in
whole, the public office or the person responsible for the
requested public record shall provide the requester
with an explanation, including legal authority, setting
forth why the request was denied. If the initial request
was provided in writing, the explanation also shall be
provided to the requester in writing. The explanation
shall not preclude the public office or the person
responsible for the requested public record from relying
upon additional reasons or legal authority in defending
an action commenced under division (C) of this section.

App. 20
(4)
Unless specifically required or authorized by
state or federal law or in accordance with division (B)
of this section, no public office or person responsible for
public records may limit or condition the availability of
public records by requiring disclosure of the requester’s
identity or the intended use of the requested public
record. Any requirement that the requester disclose the
requester’s identity or the intended use of the
requested public record constitutes a denial of the
request.
(5)
A public office or person responsible for public
records may ask a requester to make the request in
writing, may ask for the requester’s identity, and may
inquire about the intended use of the information
requested, but may do so only after disclosing to the
requester that a written request is not mandatory, that
the requester may decline to reveal the requester’s
identity or the intended use, and when a written
request or disclosure of the identity or intended use
would benefit the requester by enhancing the ability of
the public office or person responsible for public records
to identify, locate, or deliver the public records sought
by the requester.
(6)
If any person requests a copy of a public record
in accordance with division (B) of this section, the
public office or person responsible for the public record
may require that person to pay in advance the cost
involved in providing the copy of the public record in
accordance with the choice made by the person
requesting the copy under this division. The public
office or the person responsible for the public record
shall permit that person to choose to have the public

App. 21
record duplicated upon paper, upon the same medium
upon which the public office or person responsible for
the public record keeps it, or upon any other medium
upon which the public office or person responsible for
the public record determines that it reasonably can be
duplicated as an integral part of the normal operations
of the public office or person responsible for the public
record. When the person requesting the copy makes a
choice under this division, the public office or person
responsible for the public record shall provide a copy of
it in accordance with the choice made by that person.
Nothing in this section requires a public office or
person responsible for the public record to allow the
person requesting a copy of the public record to make
the copies of the public record.
(7)(a) Upon a request made in accordance with division
(B) of this section and subject to division (B)(6) of this
section, a public office or person responsible for public
records shall transmit a copy of a public record to any
person by United States mail or by any other means of
delivery or transmission within a reasonable period of
time after receiving the request for the copy. The public
office or person responsible for the public record may
require the person making the request to pay in
advance the cost of postage if the copy is transmitted
by United States mail or the cost of delivery if the copy
is transmitted other than by United States mail, and to
pay in advance the costs incurred for other supplies
used in the mailing, delivery, or transmission.
(b)
Any public office may adopt a policy and
procedures that it will follow in transmitting, within a
reasonable period of time after receiving a request,

App. 22
copies of public records by United States mail or by any
other means of delivery or transmission pursuant to
division (B)(7) of this section. A public office that
adopts a policy and procedures under division (B)(7) of
this section shall comply with them in performing its
duties under that division.
(c)
In any policy and procedures adopted under
division (B)(7) of this section:
(i)
A public office may limit the number of records
requested by a person that the office will physically
deliver by United States mail or by another delivery
service to ten per month, unless the person certifies to
the office in writing that the person does not intend to
use or forward the requested records, or the
information contained in them, for commercial
purposes;
(ii)
A public office that chooses to provide some or all
of its public records on a web site that is fully
accessible to and searchable by members of the public
at all times, other than during acts of God outside the
public office’s control or maintenance, and that charges
no fee to search, access, download, or otherwise receive
records provided on the web site, may limit to ten per
month the number of records requested by a person
that the office will deliver in a digital format, unless
the requested records are not provided on the web site
and unless the person certifies to the office in writing
that the person does not intend to use or forward the
requested records, or the information contained in
them, for commercial purposes.

App. 23
(iii) For purposes of division (B)(7) of this section,
“commercial” shall be narrowly construed and does not
include reporting or gathering news, reporting or
gathering information to assist citizen oversight or
understanding of the operation or activities of
government, or nonprofit educational research.
(8)
A public office or person responsible for public
records is not required to permit a person who is
incarcerated pursuant to a criminal conviction or a
juvenile adjudication to inspect or to obtain a copy of
any public record concerning a criminal investigation
or prosecution or concerning what would be a
criminal investigation or prosecution if the subject
of the investigation or prosecution were an adult,
unless the request to inspect or to obtain a copy of the
record is for the purpose of acquiring information that
is subject to release as a public record under this
section and the judge who imposed the sentence or
made the adjudication with respect to the person, or
the judge’s successor in office, finds that the
information sought in the public record is necessary to
support what appears to be a justiciable claim of the
person.
(9)(a) Upon written request made and signed by a
journalist, a public office, or person responsible for
public records, having custody of the records of the
agency employing a specified designated public service
worker shall disclose to the journalist the address of
the actual personal residence of the designated public
service worker and, if the designated public service
worker’s spouse, former spouse, or child is employed by
a public office, the name and address of the employer of

App. 24
the designated public service worker’s spouse, former
spouse, or child. The request shall include the
journalist’s name and title and the name and address
of the journalist’s employer and shall state that
disclosure of the information sought would be in the
public interest.
(b)
Division (B)(9)(a) of this section also applies to
journalist requests for:
(i)
Customer information maintained by a
municipally owned or operated public utility, other
than social security numbers and any private financial
information such as credit reports, payment methods,
credit card numbers, and bank account information;
(ii)
Information about minors involved in a school
vehicle accident as provided in division (A)(1)(gg) of
this section, other than personal information as defined
in section 149.45 of the Revised Code.
(c)
As used in division (B)(9) of this section,
“journalist” means a person engaged in, connected
with, or employed by any news medium, including a
newspaper, magazine, press association, news agency,
or wire service, a radio or television station, or a
similar medium, for the purpose of gathering,
processing, transmitting, compiling, editing, or
disseminating information for the general public.
(10) Upon a request made by a victim, victim’s
attorney, or victim’s representative, as that term is
used in section 2930.02 of the Revised Code, a public
office or person responsible for public records shall
transmit a copy of a depiction of the victim as described

App. 25
in division (A)(1)(gg) of this section to the victim,
victim’s attorney, or victim’s representative.
(C)(1) If a person allegedly is aggrieved by the failure
of a public office or the person responsible for public
records to promptly prepare a public record and to
make it available to the person for inspection in
accordance with division (B) of this section or by any
other failure of a public office or the person responsible
for public records to comply with an obligation in
accordance with division (B) of this section, the person
allegedly aggrieved may do only one of the following,
and not both:
(a)
File a complaint with the clerk of the court of
claims or the clerk of the court of common pleas under
section 2743.75 of the Revised Code;
(b)
Commence a mandamus action to obtain a
judgment that orders the public office or the person
responsible for the public record to comply with
division (B) of this section, that awards court costs and
reasonable attorney’s fees to the person that instituted
the mandamus action, and, if applicable, that includes
an order fixing statutory damages under division (C)(2)
of this section. The mandamus action may be
commenced in the court of common pleas of the county
in which division (B) of this section allegedly was not
complied with, in the supreme court pursuant to its
original jurisdiction under Section 2 of Article IV, Ohio
Constitution, or in the court of appeals for the appellate
district in which division (B) of this section allegedly
was not complied with pursuant to its original
jurisdiction under Section 3 of Article IV, Ohio
Constitution.

App. 26
(2)
If a requester transmits a written request by
hand delivery, electronic submission, or certified mail
to inspect or receive copies of any public record in a
manner that fairly describes the public record or class
of public records to the public office or person
responsible for the requested public records, except as
otherwise provided in this section, the requester shall
be entitled to recover the amount of statutory damages
set forth in this division if a court determines that the
public office or the person responsible for public records
failed to comply with an obligation in accordance with
division (B) of this section.
The amount of statutory damages shall be fixed at one
hundred dollars for each business day during which the
public office or person responsible for the requested
public records failed to comply with an obligation in
accordance with division (B) of this section, beginning
with the day on which the requester files a mandamus
action to recover statutory damages, up to a maximum
of one thousand dollars. The award of statutory
damages shall not be construed as a penalty, but as
compensation for injury arising from lost use of the
requested information. The existence of this injury
shall be conclusively presumed. The award of statutory
damages shall be in addition to all other remedies
authorized by this section.
The court may reduce an award of statutory damages
or not award statutory damages if the court determines
both of the following:
(a)
That, based on the ordinary application of
statutory law and case law as it existed at the time of
the conduct or threatened conduct of the public office or

App. 27
person responsible for the requested public records that
allegedly constitutes a failure to comply with an
obligation in accordance with division (B) of this section
and that was the basis of the mandamus action, a
well-informed public office or person responsible for the
requested public records reasonably would believe that
the conduct or threatened conduct of the public office or
person responsible for the requested public records did
not constitute a failure to comply with an obligation in
accordance with division (B) of this section;
(b)
That a well-informed public office or person
responsible for the requested public records reasonably
would believe that the conduct or threatened conduct of
the public office or person responsible for the requested
public records would serve the public policy that
underlies the authority that is asserted as permitting
that conduct or threatened conduct.
(3)
In a mandamus action filed under division (C)(1)
of this section, the following apply:
(a)(i) If the court orders the public office or the person
responsible for the public record to comply with
division (B) of this section, the court shall determine
and award to the relator all court costs, which shall be
construed as remedial and not punitive.
(ii)
If the court makes a determination described in
division (C)(3)(b)(iii) of this section, the court shall
determine and award to the relator all court costs,
which shall be construed as remedial and not punitive.
(b)
If the court renders a judgment that orders the
public office or the person responsible for the public
record to comply with division (B) of this section or if

App. 28
the court determines any of the following, the court
may award reasonable attorney’s fees to the relator,
subject to division (C)(4) of this section:
(i)
The public office or the person responsible for the
public records failed to respond affirmatively or
negatively to the public records request in accordance
with the time allowed under division (B) of this section.
(ii)
The public office or the person responsible for the
public records promised to permit the relator to inspect
or receive copies of the public records requested within
a specified period of time but failed to fulfill that
promise within that specified period of time.
(iii) The public office or the person responsible for the
public records acted in bad faith when the office or
person voluntarily made the public records available to
the relator for the first time after the relator
commenced the mandamus action, but before the court
issued any order concluding whether or not the public
office or person was required to comply with division
(B) of this section. No discovery may be conducted on
the issue of the alleged bad faith of the public office or
person responsible for the public records. This division
shall not be construed as creating a presumption that
the public office or the person responsible for the public
records acted in bad faith when the office or person
voluntarily made the public records available to the
relator for the first time after the relator commenced
the mandamus action, but before the court issued any
order described in this division.
(c)
The court shall not award attorney’s fees to the
relator if the court determines both of the following:

App. 29
(i)
That, based on the ordinary application of
statutory law and case law as it existed at the time of
the conduct or threatened conduct of the public office or
person responsible for the requested public records that
allegedly constitutes a failure to comply with an
obligation in accordance with division (B) of this section
and that was the basis of the mandamus action, a
well-informed public office or person responsible for the
requested public records reasonably would believe that
the conduct or threatened conduct of the public office or
person responsible for the requested public records did
not constitute a failure to comply with an obligation in
accordance with division (B) of this section;
(ii)
That a well-informed public office or person
responsible for the requested public records reasonably
would believe that the conduct or threatened conduct of
the public office or person responsible for the requested
public records would serve the public policy that
underlies the authority that is asserted as permitting
that conduct or threatened conduct.
(4)
All of the following apply to any award of
reasonable attorney’s fees awarded under division
(C)(3)(b) of this section:
(a)
The fees shall be construed as remedial and not
punitive.
(b)
The fees awarded shall not exceed the total of
the reasonable attorney’s fees incurred before the
public record was made available to the relator and the
fees described in division (C)(4)(c) of this section.
(c)
Reasonable attorney’s fees shall include
reasonable fees incurred to produce proof of the

App. 30
reasonableness and amount of the fees and to
otherwise litigate entitlement to the fees.
(d)
The court may reduce the amount of fees
awarded if the court determines that, given the factual
circumstances involved with the specific public records
request, an alternative means should have been
pursued to more effectively and efficiently resolve the
dispute that was subject to the mandamus action filed
under division (C)(1) of this section.
(5)
If the court does not issue a writ of mandamus
under division (C) of this section and the court
determines at that time that the bringing of the
mandamus action was frivolous conduct as defined in
division (A) of section 2323.51 of the Revised Code, the
court may award to the public office all court costs,
expenses, and reasonable attorney’s fees, as
determined by the court.
(D)
Chapter 1347. of the Revised Code does not limit
the provisions of this section.
(E)(1) To ensure that all employees of public offices are
appropriately educated about a public office’s
obligations under division (B) of this section, all elected
officials or their appropriate designees shall attend
training approved by the attorney general as provided
in section 109.43 of the Revised Code. A future official
may satisfy the requirements of this division by
attending the training before taking office, provided
that the future official may not send a designee in the
future official’s place.
(2)
All public offices shall adopt a public records
policy in compliance with this section for responding to

App. 31
public records requests. In adopting a public records
policy under this division, a public office may obtain
guidance from the model public records policy
developed and provided to the public office by the
attorney general under section 109.43 of the Revised
Code. Except as otherwise provided in this section, the
policy may not limit the number of public records that
the public office will make available to a single person,
may not limit the number of public records that it will
make available during a fixed period of time, and may
not establish a fixed period of time before it will
respond to a request for inspection or copying of public
records, unless that period is less than eight hours.
The public office shall distribute the public records
policy adopted by the public office under this division
to the employee of the public office who is the records
custodian or records manager or otherwise has custody
of the records of that office. The public office shall
require that employee to acknowledge receipt of the
copy of the public records policy. The public office shall
create a poster that describes its public records policy
and shall post the poster in a conspicuous place in the
public office and in all locations where the public office
has branch offices. The public office may post its public
records policy on the internet web site of the public
office if the public office maintains an internet web site.
A public office that has established a manual or
handbook of its general policies and procedures for all
employees of the public office shall include the public
records policy of the public office in the manual or
handbook.

App. 32
(F)(1) The bureau of motor vehicles may adopt rules
pursuant to Chapter 119. of the Revised Code to
reasonably limit the number of bulk commercial special
extraction requests made by a person for the same
records or for updated records during a calendar year.
The rules may include provisions for charges to be
made for bulk commercial special extraction requests
for the actual cost of the bureau, plus special extraction
costs, plus ten per cent. The bureau may charge for
expenses for redacting information, the release of
which is prohibited by law.
(2)

As used in division (F)(1) of this section:

(a)
“Actual cost” means the cost of depleted supplies,
records storage media costs, actual mailing and
alternative delivery costs, or other transmitting costs,
and any direct equipment operating and maintenance
costs, including actual costs paid to private contractors
for copying services.
(b)
“Bulk commercial special extraction request”
means a request for copies of a record for information
in a format other than the format already available, or
information that cannot be extracted without
examination of all items in a records series, class of
records, or database by a person who intends to use or
forward the copies for surveys, marketing, solicitation,
or resale for commercial purposes. “Bulk commercial
special extraction request” does not include a request
by a person who gives assurance to the bureau that the
person making the request does not intend to use or
forward the requested copies for surveys, marketing,
solicitation, or resale for commercial purposes.

App. 33
(c)
“Commercial” means profit-seeking production,
buying, or selling of any good, service, or other product.
(d)
“Special extraction costs” means the cost of the
time spent by the lowest paid employee competent to
perform the task, the actual amount paid to outside
private contractors employed by the bureau, or the
actual cost incurred to create computer programs to
make the special extraction. “Special extraction costs”
include any charges paid to a public agency for
computer or records services.
(3)
For purposes of divisions (F)(1) and (2) of this
section, “surveys, marketing, solicitation, or resale for
commercial purposes” shall be narrowly construed and
does not include reporting or gathering news, reporting
or gathering information to assist citizen oversight or
understanding of the operation or activities of
government, or nonprofit educational research.
(G)
A request by a defendant, counsel of a defendant,
or any agent of a defendant in a criminal action that
public records related to that action be made available
under this section shall be considered a demand for
discovery pursuant to the Criminal Rules, except to the
extent that the Criminal Rules plainly indicate a
contrary intent. The defendant, counsel of the
defendant, or agent of the defendant making a request
under this division shall serve a copy of the request on
the prosecuting attorney, director of law, or other chief
legal officer responsible for prosecuting the action.
(H)(1) Any portion of a body-worn camera or dashboard
camera recording described in divisions (A)(17)(b) to (h)
of this section may be released by consent of the subject

App. 34
of the recording or a representative of that person, as
specified in those divisions, only if either of the
following applies:
(a)
The recording will not be used in connection with
any probable or pending criminal proceedings;
(b)
The recording has been used in connection with
a criminal proceeding that was dismissed or for which
a judgment has been entered pursuant to Rule 32 of
the Rules of Criminal Procedure, and will not be used
again in connection with any probable or pending
criminal proceedings.
(2)
If a public office denies a request to release a
restricted portion of a body-worn camera or dashboard
camera recording, as defined in division (A)(17) of this
section, any person may file a mandamus action
pursuant to this section or a complaint with the clerk
of the court of claims pursuant to section 2743.75 of the
Revised Code, requesting the court to order the release
of all or portions of the recording. If the court
considering the request determines that the filing
articulates by clear and convincing evidence that the
public interest in the recording substantially outweighs
privacy interests and other interests asserted to deny
release, the court shall order the public office to release
the recording.

